HHS/OIG-Audit--"Review of the Food and Drug Administration's Processes to Review Medical Device Submission Under the Pre-Market Approval and Investigational Device Exemption Programs, (A-15-95-50001)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Food and Drug Administration's Processes to Review Medical
Device Submissions Under the Pre-Market Approval and Investigational Device
Exemption Programs," (A-15-95-50001)
March 6, 1996
Complete Text of Report is available in PDF format
(1.1 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of the Food and Drug Administration's
(FDA) Center for Device and Radiological Health's (CDRH) controls for ensuring
the integrity of the Pre-Market Approval (PMA) and Investigational Device Exemption
(IDE) application review processes. In general, since 1992, CDRH has taken corrective
action that should enhance the integrity of these processes. However, we are
recommending that CDRH further strengthen the integrity of these decisionmaking
processes by fully implementing a program for conducting independent internal
quality control reviews. The FDA concurred with our recommendation.